                Improvements Are Needed to Ensure Tax
                Returns Are Prepared Correctly at Internal
                 Revenue Service Volunteer Income Tax
                            Assistance Sites

                                   August 2004

                       Reference Number: 2004-40-154




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                            DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                    August 31, 2004


      MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


      FROM:                        Gordon C. Milbourn III
                                   Acting Deputy Inspector General for Audit

      SUBJECT:                     Final Audit Report - Improvements Are Needed to Ensure Tax
                                   Returns Are Prepared Correctly at Internal Revenue Service
                                   Volunteer Income Tax Assistance Sites (Audit # 200440039)


      This report presents the results of our review of Internal Revenue Service (IRS)
      Volunteer Income Tax Assistance (VITA) sites. The overall objective of this review was
      to determine whether volunteers at IRS VITA sites1 prepare accurate tax returns based
      on facts provided by taxpayers. Our testing did not involve volunteer tax preparation
      sites associated with the military and Tax Counseling for the Elderly.
      The Tax Reform Act of 19692 resulted in the formation of the VITA Program. Emphasis
      has continually focused on expanding the VITA Program through increased recruitment
      of social service, non-profit, corporate, financial, education, and government
      organizations; involvement of the military on a national level; and expansion of
      assistance provided to the limited-English proficient community. VITA sites are often
      located at neighborhood centers, libraries, schools, churches, and shopping malls.
      The VITA Program plays a vital role in helping the IRS achieve its goal of improving
      taxpayer service and facilitating participation in the tax system with sectors of the public.
      The Program provides free Federal tax return preparation and electronic filing (e-filing)
      to target segments of individual taxpayers, including low-income,3 elderly, disabled, and
      limited-English proficient taxpayers. These taxpayers are frequently involved in intricate



      1
        For the purposes of this report, the terms “VITA site” or “volunteer site” refer to community-based VITA sites.
      2
        Pub. L. No. 91-172, 83 Stat. 487 (codified as amended in scattered sections of 26 U.S.C. and 42 U.S.C.).
      3
        For the VITA Program, low- to moderate-income taxpayers are defined as those taxpayers with income levels at or
      below the Earned Income Tax Credit (EITC) guidelines. For Tax Year 2003, the maximum income level for the
      EITC was $34,692.
                                                          2

family situations that make it difficult to correctly understand and apply the complex tax
law.
In 1970, the VITA Program assisted 104,000 taxpayers by preparing tax returns and/or
answering questions. In Calendar Year 2003,4 the Program assisted
843,8035 taxpayers at 3,791 VITA sites located around the country. The tax returns
filed by these 843,803 taxpayers involved refunds of approximately $996 million and
liabilities of approximately $66 million. In addition, volunteers at VITA sites prepared
20,958 tax returns in which the taxpayers had no refund or liability.
In an attempt to have tax returns prepared, from February through April 2004 Treasury
Inspector General for Tax Administration auditors anonymously visited 44 VITA sites
nationwide acting as taxpayers and presenting facts based on scenarios designed
around income reporting, filing status, exemptions, and the Earned Income Tax Credit
(EITC) and Child Tax Credit (CTC). Of the 35 tax returns prepared,6 none were
prepared correctly. If 28 (80 percent) of these 35 tax returns had been filed, the IRS
would have incorrectly refunded $26,007. If the remaining 7 (20 percent) tax returns
had been filed, taxpayers would not have received $4,546 in tax refunds to which they
were entitled.
In addition, taxpayers may not always receive accurate information on VITA site hours,
services, or locations. VITA site information provided by IRS employees is not always
accurate and clear as to when the site is open, the location of the site, whether an
appointment is necessary, and the type(s) of language service provided.
During the review, we shared results with IRS management. In response, they quickly
issued to volunteers a series of quality alerts that could be used as job aids to guide
volunteers through tax law issues including the head of household filing status, the
EITC, and the Advance CTC. IRS management also formed an executive-led team to
address volunteer tax return quality and issued revised volunteer site review guidelines.
The goal of management’s actions is to improve the quality of tax returns prepared by
volunteers, with a specific focus on the quality of volunteer interviews with taxpayers
and the correct application of the tax law.
However, additional actions are needed before the 2005 Filing Season to ensure
taxpayers receive correctly prepared tax returns and can easily locate VITA sites when
using IRS-provided information. We recommended the Commissioner, Wage and
Investment (W&I) Division, review the existing process of ensuring volunteers are
qualified to prepare tax returns to make certain that volunteers are trained and certified.


4
  Filing Season 2003 relates to the processing of Tax Year 2002 tax returns. This is the most recent complete year of
data the IRS has for the VITA Program. The filing season is the period from January through mid-April when most
individual income tax returns are filed.
5
  The figure includes nonmilitary and military VITA-prepared tax returns. For Tax Year 2002, the IRS was unable
to distinguish between returns prepared by the nonmilitary and military sites. Nonmilitary sites account for
92 percent of all VITA sites.
6
  For 9 of the 44 visits, tax returns were not prepared because the sites were not open or had been relocated, too
many taxpayers were in line ahead of the auditor, or the income in the scenarios was greater than the site’s criteria.
                                            3

In addition, the Commissioner, W&I Division, should develop a quality review program
that ensures volunteers are correctly applying the law and ensure VITA site information,
including the address, hours of service, type(s) of language service offered, and
whether an appointment is needed, is current and accurate.
Management’s Response: IRS management is pleased our report acknowledges the
critical role the VITA Program plays in serving disadvantaged taxpayers. They agree
with our findings and recommendations and have already initiated corrective actions.
The IRS will emphasize the requirement for volunteer certifications prior to the
2005 Filing Season, and a site visitation checklist will include verification that all
certifications for volunteers preparing returns have been received. A new automated
certification system will be implemented that will improve the testing and certification
process and will also facilitate electronic communications with volunteers to provide
quality updates, dissemination of tax law compliance trends, and other opportunities to
support volunteer efforts.
The IRS will also conduct quality reviews to determine whether required and
recommended steps are being followed to ensure an accurate return and will monitor
quality assurance efforts to assess whether these practices are producing the desired
outcomes. Lastly, the IRS will require field offices to verify that site information is
current and accurate. Management’s complete response to the draft report is included
as Appendix VII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
          Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly
            at Internal Revenue Service Volunteer Income Tax Assistance Sites




                                                  Table of Contents


Background ............................................................................................... Page 1
Taxpayers May Have Tax Returns Incorrectly Prepared
at Volunteer Income Tax Assistance Sites ................................................ Page 5
         Recommendation 1: .......................................................................Page 12
         Recommendation 2: .......................................................................Page 13

Taxpayers May Receive Inaccurate Information From the
Internal Revenue Service About Volunteer Income Tax
Assistance Sites ........................................................................................ Page 13
         Recommendation 3: .......................................................................Page 15

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 16
Appendix II – Major Contributors to This Report ....................................... Page 18
Appendix III – Report Distribution List ....................................................... Page 19
Appendix IV – Results of Tax Returns Prepared at Volunteer
Income Tax Assistance Sites by State for Tax Year 2002......................... Page 20
Appendix V – States Visited for Volunteer Tax Preparation
Assistance February Through April 2004 .................................................. Page 23
Appendix VI – Results of Tax Returns Incorrectly Prepared at
Community-Based Volunteer Income Tax Assistance Sites...................... Page 24
Appendix VII – Management’s Response to the Draft Report ................... Page 26
       Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly
         at Internal Revenue Service Volunteer Income Tax Assistance Sites

                               Providing quality customer service is the Internal Revenue
Background
                               Service’s (IRS) first step to taxpayer compliance. To assist
                               taxpayers in complying with the law, the IRS offers
                               assistance through, for example, toll-free telephone
                               numbers, walk-in services, and the IRS Internet site,
                               IRS.gov. Because of the complexity of the tax law, it has
                               become even more critical for the IRS to ensure these
                               services are available to all taxpayers.
                               The Volunteer Income Tax Assistance (VITA) Program
                               plays a vital role in the IRS’ goal of improving taxpayer
                               service and facilitating participation in the tax system with
                               sectors of the public. The Program provides free Federal tax
                               return preparation and electronic filing (e-filing) to target
                               underserved segments of individual taxpayers, including
                               low-income,1 elderly, disabled, and limited
                               English-proficient taxpayers. These taxpayers are
                               frequently involved in intricate family situations that make
                               it difficult to correctly understand and apply the complex
                               tax law.
                               The VITA Program originated in 1969 as a result of an
                               increased emphasis on Taxpayer Education Programs due to
                               the Tax Reform Act of 1969.2 Emphasis has continually
                               focused on expanding the VITA Program through increased
                               recruitment of social service, non-profit, corporate,
                               financial, education, and government organizations;
                               involvement of the military on a national level; and
                               expansion of assistance provided to the limited-English
                               proficient community. VITA sites3 are often located at
                               neighborhood centers, libraries, schools, churches, and
                               shopping malls.
                               In 1970, the VITA Program assisted 104,000 taxpayers by
                               preparing tax returns and/or answering questions. In
                               Calendar Year (CY) 2003, the VITA Program assisted


                               1
                                 For the VITA Program, low- to moderate-income taxpayers are
                               defined as those taxpayers with income levels at or below the
                               Earned Income Tax Credit (EITC) guidelines. For Tax Year 2003, the
                               maximum income level for EITC was $34,692.
                               2
                                 Pub. L. No. 91-172, 83 Stat. 487 (codified as amended in scattered
                               sections of 26 U.S.C. and 42 U.S.C.).
                               3
                                 For the purposes of this report, the terms “VITA site” or “volunteer
                               site” refer to community-based VITA sites.
                                                                                               Page 1
Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly
  at Internal Revenue Service Volunteer Income Tax Assistance Sites

                        843,8034 taxpayers at 3,791 VITA sites located around the
                        country. A total of 589,438 (70 percent) of the
                        843,803 VITA-prepared tax returns were e-filed; the
                        remaining 254,365 (30 percent) were filed via paper.
                        Table 1 provides a breakdown of Tax Year (TY) 2002 tax
                        returns filed in CY 2003 by these 843,803 taxpayers with
                        regards to refunds, break-even filings (no refund or tax
                        liability), and liabilities (taxes due or owed). See
                        Appendix IV for a breakdown of tax returns filed by state
                        for TY 2002.
                                                Table 1: TY 2002
                                       Tax Return Preparation at VITA Sites

                                Number of Tax Returns                   Total Dollars

                             With                    With
                            Refunds   Breakeven     Tax Due       Refunded           Owed
                          738,343      20,958     84,502     $995,736,279 $66,030,868
                        Source: IRS management information system containing all tax returns
                        prepared at VITA sites.

                        One of the Congress’ principal objectives in enacting the
                        IRS Restructuring and Reform Act of 1998 (RRA 98)5 was
                        to mandate that the IRS do a better job of meeting the needs
                        of its customers. As part of the RRA 98, the Congress
                        directed the IRS to achieve a better balance between its
                        post-filing enforcement efforts and pre-filing taxpayer
                        assistance through education and service.
                        In response, the IRS reorganized its functional areas and
                        revised its mission statement to refocus its emphasis on
                        helping taxpayers understand and meet their tax
                        responsibilities. As part of its restructuring efforts, the IRS
                        created the Stakeholder Partnerships, Education and




                        4
                          Figure includes nonmilitary and military VITA-prepared tax returns.
                        For Tax Year 2002, the IRS was unable to distinguish between returns
                        prepared by the nonmilitary and military sites. Nonmilitary sites
                        account for 92 percent of all VITA sites.
                        5
                          Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                        sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                        23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                        Page 2
Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly
  at Internal Revenue Service Volunteer Income Tax Assistance Sites

                        Communication (SPEC)6 function. Oversight of the
                        VITA Program is the responsibility of the SPEC function.
                        Its business objectives include increasing access to
                        VITA sites for low-income taxpayers, increasing e-filing,
                        and enhancing accuracy. To accomplish this, the SPEC
                        function provides oversight by determining policies and
                        procedures, developing products and training material, and
                        monitoring and managing VITA Program activity.
                        The VITA Program is becoming more important as the IRS
                        reduces tax return preparation assistance in its Taxpayer
                        Assistance Centers (TAC).7 Changes in the TAC criteria for
                        tax return preparation assistance have reduced the number
                        of returns prepared in the TACs by 10 percent from
                        Fiscal Years 2002 to 2003. The IRS plans to continue this
                        trend. The National Taxpayer Advocate has raised concerns
                        in annual reports to the Congress that low-income taxpayers
                        face numerous hurdles in obtaining free tax preparation and
                        e-filing. With the reduction of tax return preparation at the
                        TACs, the IRS expects VITA sites to supplement the service
                        previously provided by the TACs. IRS management agrees
                        with the National Taxpayer Advocate and will continue to
                        be proactive in identifying locations where the maximum
                        number of eligible taxpayers can have access to free tax
                        return preparation services.
                        In an effort to ensure taxpayers who need assistance are
                        provided with the ability to obtain this assistance, the
                        SPEC function in concert with its partners uses data in its
                        attempts to locate VITA sites in geographic areas consistent
                        with where the targeted taxpayers live or work. To further
                        expand services in local communities to a greater number of
                        taxpayers, the SPEC function partners with social service,
                        non-profit, corporate, financial, education, and government
                        organizations. These various organizations are often part of
                        a larger coalition. The SPEC function has developed
                        approximately 230 coalitions made up of thousands of local
                        organizations, all playing a role of bringing free tax help to


                        6
                          The SPEC is a functional unit within the Wage and Investment
                        Division Customer Assistance, Relationships, and Education operating
                        unit.
                        7
                          The TACs are IRS field offices offering taxpayers face-to-face tax
                        assistance.
                                                                                      Page 3
Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly
  at Internal Revenue Service Volunteer Income Tax Assistance Sites

                        their communities. These organizations include over
                        30,000 volunteers.
                        The SPEC function also developed a taxpayer assistance
                        reporting system that includes VITA site contact
                        information and aids in the management of the VITA sites.
                        Site locations, hours of operation, days of operation, and the
                        names of the site coordinators are included in this system.
                        In addition, this information is provided to the IRS
                        Toll-Free Customer Service function assistors and
                        TAC employees, so they can direct taxpayers to a local
                        VITA site.
                        This review was performed in the IRS Customer
                        Assistance, Relationships, and Education function in the
                        Wage and Investment (W&I) Division Headquarters in
                        Atlanta, Georgia, and Territory Offices8 in Phoenix,
                        Arizona; Chicago, Illinois; Baltimore, Maryland; and
                        New York, New York, during the period January through
                        June 2004. From February through April 2004, Treasury
                        Inspector General for Tax Administration (TIGTA) auditors
                        performed 44 anonymous visits to VITA sites located in
                        15 states and the District of Columbia. See Appendix V for
                        the specific states visited.9 In an attempt to have tax returns
                        prepared, auditors presented two scenarios designed around
                        income reporting, filing status, exemptions, and the Earned
                        Income Tax Credit (EITC) and Child Tax Credit (CTC).
                        The audit was conducted in accordance with Government
                        Auditing Standards. Detailed information on our audit
                        objective, scope, and methodology is presented in
                        Appendix I. Major contributors to the report are listed in
                        Appendix II.




                        8
                          The Territory Offices have overall responsibility for management of
                        the VITA Program.
                        9
                          Our testing did not involve VITA sites associated with the military and
                        Tax Counseling for the Elderly.
                                                                                         Page 4
         Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly
           at Internal Revenue Service Volunteer Income Tax Assistance Sites

                                  Volunteers incorrectly prepared all 35 tax returns they
Taxpayers May Have Tax
                                  prepared based on the facts in scenarios TIGTA auditors
Returns Incorrectly Prepared at
                                  presented while making anonymous visits to 44 VITA
Volunteer Income Tax
                                  sites.10 If 28 (80 percent) of these 35 tax returns had been
Assistance Sites
                                  filed, the IRS would have incorrectly refunded $26,007. On
                                  the other hand, if the remaining 7 (20 percent) incorrectly
                                  prepared tax returns had been filed, the taxpayers would not
                                  have received $4,546 in tax refunds to which they were
                                  entitled. See Appendix VI for details.
                                  Tax returns were prepared incorrectly because
                                  volunteers did not obtain sufficient information to
                                  correctly apply the tax law
                                  •    VITA sites did not always use intake sheets. Intake
                                       sheets are designed to obtain key information about the
                                       taxpayer. Although the use of an intake sheet is
                                       recommended in the IRS’ VITA guidelines,
                                       15 (43 percent) of the 35 sites at which a tax return was
                                       prepared did not use them.
                                  •    Interviewing techniques were not effective in assessing
                                       taxpayers’ family situations and verifying key facts
                                       about taxpayers and their dependents. VITA guidelines
                                       emphasize the importance of asking certain questions
                                       about taxpayers and their families to ensure tax returns
                                       are prepared correctly. Family situations are often
                                       complicated and unique. To correctly apply the
                                       complex tax law concerning filing status, exemption,
                                       and related credits, volunteers must ensure they have a
                                       complete understanding of the taxpayers’ family
                                       situations.
                                       For example, for a single taxpayer to qualify for head of
                                       household filing status,11 the taxpayer must:



                                  10
                                     For 9 of the 44 VITA sites, tax returns were not prepared because the
                                  sites were not open or had been relocated, too many taxpayers were in
                                  line ahead of the auditor, or the income in the scenarios was greater than
                                  the site’s criteria.
                                  11
                                     If a taxpayer qualifies to file as head of household, the taxpayer’s tax
                                  rate usually will be lower than the rates for single or married filing
                                  separately. In addition, the taxpayer receives a higher standard
                                  deduction than when filing as single or married filing separately.
                                                                                                     Page 5
Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly
  at Internal Revenue Service Volunteer Income Tax Assistance Sites

                            •   Be unmarried or considered unmarried on the last
                                day of the year.
                            •   Have paid more than one-half of the cost of keeping
                                up a home for the year.
                            •   Have a qualifying person who lived with the
                                taxpayer in the home for more than one-half of the
                                year (except for temporary absences, such as school
                                or business).
                            The requirements a taxpayer must meet to qualify for
                            head of household filing status may not be the same as
                            those the taxpayer must meet to claim a qualifying
                            person as a dependent or to qualify for the EITC and/or
                            CTC. For example, a dependent parent does not have to
                            live with the taxpayer at all, while a foster child must
                            live with the taxpayer all year. A foster child may also
                            have multiple definitions, depending on which
                            deduction or credit is being applied.
                            In the majority of visits, the volunteers assisting the
                            auditors did not ask sufficient questions to determine the
                            auditors’ family situations. For example, auditors
                            presented a scenario of a single parent who had recently
                            moved to another state. The auditor explained that his
                            or her son had lived with the auditor for only 5½ months
                            in 2003. The auditor paid for the son’s expenses while
                            the son lived with the grandparents the remainder of the
                            year. Volunteers did not always ask whether the son’s
                            living with the grandparents was a permanent or
                            temporary situation. Some volunteers made the
                            assumption that it was a temporary situation and
                            prepared the return with the auditor filing as head of
                            household instead of single, thus qualifying the auditor
                            for the EITC. Using the same scenario, some volunteers
                            did not always ask how long the son lived in the home
                            with the auditor, assumed it was 12 months, and
                            prepared the tax returns using this assumption.
                            Volunteers also did not verify key information to
                            validate the identity of the auditor and the legitimacy of
                            dependents being claimed. For example, in preparing
                            15 (43 percent) of the 35 tax returns, the volunteers did
                            not use key information to validate the auditors’
                                                                                Page 6
Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly
  at Internal Revenue Service Volunteer Income Tax Assistance Sites

                            identities by asking for some type of photo
                            identification. In preparing 6 (17 percent) of the 35 tax
                            returns, the volunteers did not ensure the legitimacy of
                            the dependents being claimed by requesting and
                            reviewing Social Security cards for the dependents.
                        •   Volunteers did not always use the probe and response
                            guide provided by the SPEC function. At the
                            completion of the IRS’ training program, volunteers are
                            provided with a guide detailing key questions to ask
                            when attempting to determine a taxpayer’s eligibility for
                            certain credits and deductions. However, during auditor
                            visits, volunteers generally did not refer to this guide
                            when attempting to determine the auditors’ eligibility for
                            credits and deductions. Comparisons of the facts in the
                            scenarios to the key questions included in the guide
                            show that if the guide had been correctly used, the tax
                            returns most likely would have been prepared correctly.
                        Table 2 shows the accuracy of the volunteers’ application of
                        the tax laws presented in the scenarios.
                               Table 2: Accuracy of Tax Returns by Tax Law Topic

                                                            Eligibility Assessment
                              Tax Law Topics             Correct          Incorrect
                                Filing Status               7                 28
                                 Dependents                 27                8
                                    EITC                    13                22
                                    CTC                      24               11
                        Source: Anonymous visits performed by TIGTA auditors.

                        Tax returns were prepared incorrectly because
                        volunteers modified the facts in the scenarios the
                        auditors presented
                        For 9 (26 percent) of the 35 incorrectly prepared tax returns,
                        volunteers modified the facts the auditors presented. The
                        volunteers either knowingly or unintentionally made the
                        modifications. Had these 9 returns been filed by actual
                        taxpayers, modifications of the facts would have resulted in
                        the receipt of net refunds that were overstated by $7,285.
                        The volunteers knowingly modified the facts provided by
                        the auditors when preparing three of the nine tax returns.
                                                                                     Page 7
Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly
  at Internal Revenue Service Volunteer Income Tax Assistance Sites

                        For example, an auditor detailed on an intake sheet that his
                        or her dependent had lived with the auditor for only
                        5½ months during 2003. The volunteer asked the auditor
                        for the pen used to complete the intake sheet and changed
                        the number of months to 6½ months. Modifying the
                        number of months from 5½ to 6½ resulted in the auditor
                        incorrectly qualifying for the head of household filing status
                        and the EITC.
                        For the remaining six of nine tax returns, the volunteers
                        unintentionally modified the facts provided by the auditors.
                        For example, the auditor stated that his or her grandnephew
                        lived with the auditor for 8 months. The electronic software
                        package the volunteer used to e-file the tax return did not
                        include the relationship of grandnephew as an option when
                        selecting the dependent relationship. The volunteer was
                        unaware that a grandnephew is considered a foster child for
                        the purposes of tax law and that the foster child must live in
                        the home for an entire 12 months for the taxpayer to be
                        eligible for certain deductions/credits. The volunteer
                        instead selected the dependent relationship of a nephew. As
                        a result, the auditor was incorrectly allowed the dependent
                        exemption, head of household filing status, and CTC.
                        Conversely, the auditor did not receive the EITC to which
                        he or she was entitled.
                        People volunteer for the VITA Program because of a desire
                        to assist underserved taxpayers. The desire to assist was
                        evident during our visits. Volunteers assisting auditors were
                        helpful, courteous, and very professional. The sites
                        themselves were well organized in handling the flow of
                        large numbers of taxpayers that needed assistance. Helping
                        underserved taxpayers understand and meet their tax
                        obligations is essential to voluntary compliance. Given the
                        complexity of the tax law, it is essential that the
                        VITA Program ensure volunteers understand the
                        significance of their role in the tax system and the
                        importance of correctly applying the tax law. The IRS
                        should ensure volunteers are properly trained on the tax law
                        as well as on the importance of using all available tools and
                        resources to prepare accurate returns.



                                                                               Page 8
Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly
  at Internal Revenue Service Volunteer Income Tax Assistance Sites

                        Insufficient internal controls and management oversight
                        have resulted in the VITA Program not meeting its
                        objective of enhancing the accuracy of tax returns
                        Current guidelines and procedures do not include sufficient
                        internal controls. For example:
                        •   Volunteers are not required to sign in at VITA sites to
                            provide accountability as well as a means to ensure
                            those that are preparing returns are certified as having
                            the appropriate training.
                        •   Volunteer sites are not required, only recommended, to
                            use intake sheets to record key information about
                            taxpayers. Intake sheets should include sufficient
                            information about the taxpayer to ensure all information
                            has been provided so the tax law can be applied
                            correctly.
                        •   There is no quality review process either within the sites
                            or on a national basis to ensure the volunteers are
                            correctly applying the tax law. The current onsite
                            quality review system focuses on ensuring, for example,
                            the names, addresses, and Social Security Numbers are
                            correct, the returns are free from math errors and have
                            been signed and dated, and the correct tax and credit(s)
                            were selected from the appropriate table.
                        •   Volunteer training does not stress the importance of
                            using the probe and response guide when assessing a
                            taxpayer’s family situation.
                        Further, internal controls outlined in the IRS VITA Program
                        guidelines, designed to enable IRS management at the
                        Headquarters, Area Office, and Territory Office levels to
                        monitor and manage program activity, are not clear or
                        consistently followed. The seven Area Offices provide
                        overall VITA Program directions to Territory Offices based
                        on Program guidance from Headquarters. The 48 Territory
                        Managers have overall responsibility for management of the
                        VITA Program.
                        For example, guidelines require Territory Managers to
                        certify that volunteers are qualified to prepare tax returns,
                        maintain a list of volunteer names for each VITA site that
                        has successfully passed the test, and attempt to conduct
                                                                                 Page 9
Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly
  at Internal Revenue Service Volunteer Income Tax Assistance Sites

                        monitoring visits of VITA sites while open. These
                        guidelines also provide a checklist for the Territory
                        Managers to use to assess the performance of the
                        VITA sites. Site managers must also ensure an onsite
                        quality review system has been established.
                        However, the guidelines do not provide instructions on how
                        the monitoring visits should be conducted and how much
                        verification should be provided to ensure the VITA sites are
                        running satisfactorily. For example, of the 40 sites in the
                        4 Territory Offices selected for testing, SPEC function
                        employees had performed 28 monitoring visits.
                        •   For all 28 of the monitoring visits, discussions with the
                            4 Territory Managers determined the SPEC function
                            employees did not actually review certifications
                            verifying that each volunteer was certified; instead, they
                            just asked the VITA site coordinators if the volunteers
                            were certified. Documentation was not available to
                            confirm volunteers had been certified for 27 (68 percent)
                            of 40 VITA sites.
                        •   In 18 (64 percent) of the 28 monitoring visits, the
                            SPEC function employees confirmed that the VITA site
                            had a quality review system. No documentation was
                            provided to verify that the onsite quality review system
                            was established. In fact, the required onsite quality
                            review process was completed in only 6 (17 percent) of
                            the 35 VITA sites at which auditors had tax returns
                            prepared.
                        During the review, we shared the results of the return
                        preparation and Territory Office visits with IRS
                        management. In response, management quickly issued six
                        quality alerts to volunteers from February 17 to
                        March 26, 2004. These alerts were issued as job aids to
                        guide volunteers through tax law issues including the head
                        of household filing status, the EITC, and the Advance CTC.
                        The IRS also created an executive-led team to address
                        volunteer tax return quality and issued revised volunteer site
                        review guidelines. These actions will focus on the quality
                        of volunteer interviews with taxpayers and the correct
                        application of the tax law.


                                                                              Page 10
Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly
  at Internal Revenue Service Volunteer Income Tax Assistance Sites

                        In addition, SPEC function employees recently developed a
                        comprehensive management information system, the SPEC
                        Taxpayer Assistance Reporting System (STARS), to
                        monitor and manage key aspects of the VITA Program.
                        This system should help manage and oversee the VITA
                        Program. However, additional actions are needed before the
                        2005 Filing Season to ensure taxpayers receive correctly
                        prepared tax returns.
                        Overseeing a critical program that uses and is dependent on
                        volunteers is a challenge and makes it essential that the IRS
                        ensure its internal controls are sufficient to achieve its
                        desired outcomes. The Government Accountability Office
                        (formerly the General Accounting Office) states that internal
                        control is a major part of managing an organization and is
                        synonymous with management control. Internal control
                        serves as the first line of defense in safeguarding assets and
                        preventing and detecting errors and fraud; it comprises the
                        plans, methods, and procedures used to meet missions,
                        goals, and objectives.
                        However, if IRS management does not improve internal
                        controls, including the quality review process, and improve
                        oversight, the risk will continue that volunteers will
                        inappropriately apply the tax law, which may result in
                        incorrectly prepared tax returns and significant losses to the
                        Government. For example, Table 3 provides the volume of
                        TY 2002 tax returns prepared at VITA sites as well as the
                        substantial amounts claimed for the EITC and CTC that
                        could be at risk if the tax law is not applied correctly.
                                         Table 3: TY 2002 Tax Returns
                                 Prepared at VITA Sites With the EITC and CTC

                                                                 TY 2002
                             Tax Returns          Total Tax                Credits
                              Claiming             Returns                 Claimed
                          EITC                     179,544              $236,468,096
                          CTC                     161,618             $127,542,596
                        Source: IRS management information system containing all tax returns
                        prepared at VITA sites.

                        Incorrectly prepared tax returns not only increase the risk of
                        taxpayers receiving erroneous payments but also may create
                        additional burden on taxpayers if the IRS later finds
                                                                                     Page 11
Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly
  at Internal Revenue Service Volunteer Income Tax Assistance Sites

                        potential errors on the tax returns. For example, an analysis
                        of the 843,803 TY 2002 tax returns prepared by VITA sites
                        found that the IRS:
                        •    Rejected 62,072 (11 percent) of the 589,438 e-filed tax
                             returns for 1 or more reasons. The most common errors
                             included mismatches between what was reported on the
                             tax return and what IRS records showed for dependent
                             names, employer names, etc. Because these errors are
                             not immediately identified while a taxpayer is at a VITA
                             site, correction may require the taxpayer to return to the
                             VITA site. IRS management indicated that for
                             TY 2002, the national rate of rejected e-filed individual
                             returns was higher than for rejected e-filed VITA
                             prepared tax returns.
                        •    Identified questionable dependent claim(s) on 12,266 tax
                             returns. Because of resource constraints, the IRS
                             selected only 778 of these taxpayers for a
                             correspondence examination.12
                        •    Identified math errors on 22,630 tax returns
                             (i.e., information included on the tax return was
                             identified as incorrect). The most common errors
                             included the EITC being calculated incorrectly and
                             dependent names or Social Security Numbers not
                             matching IRS records. IRS management indicated that
                             for TY 2002 the national math error rate for all
                             individual return types was higher than for VITA
                             prepared tax returns.

                        Recommendations

                        The Commissioner, W&I Division, should:
                        1. Review the existing process for ensuring volunteers are
                           qualified to prepare tax returns to make certain that
                           volunteers are trained and certified.
                        Management’s Response: The SPEC will emphasize the
                        requirement for volunteer certifications prior to the

                        12
                          Correspondence examinations of tax returns are done through the
                        mail, with the IRS typically asking taxpayers for more support regarding
                        one or two issues on the tax return.
                                                                                      Page 12
          Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly
            at Internal Revenue Service Volunteer Income Tax Assistance Sites

                                  2005 Filing Season. SPEC’s site visitation checklist will
                                  include verification that all certifications for volunteers
                                  preparing returns have been received.
                                  The SPEC will implement a new automated certification
                                  system that will improve the testing and certification
                                  process. An automated tracking certification feature will
                                  deliver the volunteer’s test scores to a central database by
                                  electronic mail and will result in a registry of certified
                                  volunteers. The automated certification function will also
                                  facilitate electronic communications with volunteers to
                                  provide quality updates, dissemination of tax law
                                  compliance trends, and other opportunities to support
                                  volunteer efforts.
                                  2. Develop a quality review program that ensures
                                     volunteers are correctly applying the tax law.
                                  Management’s Response: The Volunteer Tax Preparation
                                  Quality Improvement Team (Quality Team) developed a
                                  plan for quality review and quality assurance. The SPEC
                                  will conduct quality reviews to determine whether required
                                  and recommended steps are being followed to ensure an
                                  accurate return. The SPEC will also monitor quality
                                  assurance efforts to assess whether these practices are
                                  producing the desired outcomes.
                                  Taxpayers may not always receive accurate information on
Taxpayers May Receive
                                  VITA site hours, services, or locations when calling the IRS
Inaccurate Information From the
                                  Toll-Free Customer Service telephone number or visiting a
Internal Revenue Service About
                                  TAC. For the majority of the VITA sites visited, the
Volunteer Income Tax Assistance
                                  information provided by the IRS on the location of the site
Sites
                                  was found to be correct. However, there were instances in
                                  which the auditors could not visit some of the VITA sites or
                                  tax returns could not be prepared because the information on
                                  the IRS systems was incorrect. For example, of the
                                  44 VITA sites visited:
                                  •   A VITA site located on a college campus was closed
                                      when the college was on spring break.
                                  •   A VITA site had been relocated. When the auditor
                                      arrived at the address that was available on the IRS
                                      Toll-Free Customer Service telephone number, the site
                                      was not open and there was no notification to taxpayers

                                                                                        Page 13
Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly
  at Internal Revenue Service Volunteer Income Tax Assistance Sites

                             of the new location. SPEC function management
                             informed the auditor the site had been relocated.
                        Auditors were also not able to get tax returns prepared when
                        they arrived at two VITA sites because the sites:
                        •    Prepared tax returns only for taxpayers with incomes
                             less than $15,150. The IRS information did not disclose
                             this limitation.
                        •    Prepared tax returns by appointment only. The
                             IRS information did not disclose this limitation.
                        In addition, it is not always clear when VITA sites offer
                        multilingual assistance. One VITA site showed that it
                        provided assistance in Spanish, when in fact the site
                        provided assistance in Spanish in addition to English. The
                        STARS allowed for only one language to be entered; any
                        additional languages had to be entered into a comment
                        section. When a site offered multilingual services, only
                        Spanish could be entered, making it appear that assistance
                        was offered in Spanish only. SPEC function management
                        plans to update the STARS in October 2004 to allow for
                        multiple languages to be selected for those sites that offer
                        multilingual services, thereby eliminating the need to enter
                        language information in the comment section.
                        IRS guidelines require that SPEC Territory Offices ensure
                        VITA site information is input timely and accurately into
                        the IRS computer system used to control VITA sites. SPEC
                        Territory Offices rely primarily on the VITA sites to provide
                        information about their sites and ensure the information is
                        current. However, VITA site managers do not always
                        provide the IRS with updates on addresses and hours of
                        operation.
                        The IRS provides VITA site contact information through the
                        IRS Toll-Free Customer Service telephone number or at the
                        TACs. VITA site contact information is not available on the
                        IRS web site, IRS.gov. We previously reported this in a
                        report issued in March 2004.13 In response to that report,
                        IRS management indicated they did not plan to include

                        13
                          More Could Be Done to Make It Easier for Taxpayers to Locate
                        Taxpayer Assistance Centers (Reference Number 2004-40-075,
                        dated March 2004).
                                                                                   Page 14
Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly
  at Internal Revenue Service Volunteer Income Tax Assistance Sites

                        VITA site information on IRS.gov. Management stated that
                        maintaining up-to-date VITA site information would require
                        a major commitment of resources. The IRS determined
                        through 2002 and 2003 customer satisfaction surveys that
                        taxpayers do not usually locate VITA sites by contacting the
                        IRS. Instead, the majority of taxpayers that seek the
                        assistance of VITA sites locate the sites through the
                        volunteer coalition’s community outreach efforts.
                        These outreach efforts are often quite extensive and
                        specifically targeted to those individuals that have a need for
                        the VITA Program. Territory Managers explained that
                        volunteer coalitions advertise, for example, on posters
                        located in subways and on buses, grocery bags, and
                        placemats on trays at fast food restaurants. However,
                        additional actions are needed before the 2005 Filing Season
                        to ensure taxpayers can easily locate VITA sites when using
                        IRS-provided information.
                        The IRS has made a commitment to offer customers who
                        visit its TACs the option of having their tax returns prepared
                        by volunteers. For these taxpayers and those who call the
                        Toll-Free Customer Service telephone number for help with
                        preparing their tax returns, it is important the information
                        about the VITA sites is current and accurate. When
                        taxpayers contact the IRS and are not provided correct
                        information on the location and services available at a
                        particular VITA site, they may not be able to obtain the
                        assistance they need.

                        Recommendation

                        The Commissioner, W&I Division, should:
                        3. Ensure VITA site information, including the address,
                           hours of service, type(s) of language service offered, and
                           whether an appointment is necessary, is current and
                           accurate.
                        Management’s Response: The IRS will build an indicator
                        in the STARS site module that will require field offices to
                        verify that site information is current and accurate.
                        Verifying site information will remain a formal requirement
                        in the SPEC filing season readiness certification and site
                        monitoring processes.
                                                                              Page 15
         Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly
           at Internal Revenue Service Volunteer Income Tax Assistance Sites

                                                                                                   Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether volunteers at the Internal Revenue
Service (IRS) Volunteer Income Tax Assistance (VITA) sites1 prepare accurate tax returns based
on facts provided by taxpayers. We also assessed the taxpayers’ experiences when seeking
assistance from VITA sites, including the ease with which taxpayers can locate VITA sites. To
accomplish the objective, we:
I.      Determined the purpose, goals, and overall strategy of the VITA Program by meeting
        with IRS management and identifying specific roles and responsibilities within the
        Program.
II.     Determined if taxpayers can easily locate VITA sites by discussing how the IRS educates
        taxpayers on VITA sites and by reviewing IRS publications and guidance.
        A. Identified how the IRS controls and maintains a listing of VITA sites, including
           addresses, hours of operation, and services provided.
        B. Confirmed the accuracy of the information when visiting the 44 sites selected in
           Step III.B.
III.    Determined if the VITA sites prepared accurate tax returns based on facts provided by
        taxpayers.
        A. Discussed with IRS management the methodology used to ensure tax returns prepared
           in the VITA sites are accurate based on information provided by taxpayers. This
           included steps to measure accuracy while taxpayers are present in the VITA sites.
        B. Selected a judgmental sample of 442 VITA sites from a list of VITA sites opened at
           the time of our testing and attempted to have tax returns prepared based on the
           scenarios prepared and presented by Treasury Inspector General for Tax
           Administration auditors. We judgmentally selected sites in each of the
           seven Stakeholder Partnerships, Education and Communication (SPEC)3 Area
           Offices4 and included two states from each Area Office. Area Office 7 includes only


1
  For the purposes of this report, the term “VITA site” refers to community-based VITA sites unless otherwise
noted. These VITA sites are frequently located at neighborhood centers, libraries, schools, churches, shopping
malls, etc.
2
  The selection of 44 VITA sites was not meant to result in a statistically valid sample since we did not plan to
project our results.
3
  The SPEC is a functional unit within the Wage and Investment Division Customer Assistance, Relationships, and
Education operating unit.
4
  The Area Office provides overall program directions to Territory Offices based on program guidance from
Headquarters.
                                                                                                          Page 16
            Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly
              at Internal Revenue Service Volunteer Income Tax Assistance Sites

               California, which is split into Northern and Southern California. The states within
               each Area Office were selected using demographic information regarding the highest
               population of low-income or elderly taxpayers. At each VITA site, auditors:
               •   Presented the scenario to the VITA site volunteer. The scenarios were designed
                   to require volunteers to make determinations relating to several tax law topics,
                   including the correct reporting of income, filing status, exemptions, deductions,
                   and credits. In addition, the scenarios were designed to require the volunteers to
                   ask specific questions to determine taxpayers’ eligibility for these deductions and
                   credits and to correctly apply the tax law when preparing the tax returns.
               •   Determined if volunteers asked appropriate probing questions to determine
                   eligibility for credits and deductions allowed on the tax returns.
               •   Documented specific information relating to the experience of the visit, including
                   the name of the assisting volunteer, wait time, type of service(s) offered
                   (electronic filing (e-filing), paper, or both), and accommodations.
               •   Determined if each tax return prepared by a volunteer was accurate. We noted if
                   a return was not prepared and the reason.
IV.        Determined if volunteers were provided with the tools necessary to assist them in
           accurately preparing tax returns by reviewing the Internal Revenue Manual, guidelines,
           and training materials and holding discussions with appropriate IRS managers and
           employees. We judgmentally selected and visited four Territory Offices5 (Phoenix,
           Arizona; Chicago, Illinois; Baltimore, Maryland; and New York, New York). We used a
           judgmental sample to select the Territory Offices because we wanted to visit offices that
           were responsible for some of the VITA sites where we had tax returns prepared. We
           selected 10 VITA sites (which included a judgmental selection of the VITA sites we
           visited for tax return preparation and other randomly selected sites to total 10 sites) under
           each of the 4 Territory Offices. For each of the 40 VITA sites selected, we reviewed the
           Territory Offices’ lists of volunteers, periodic monitoring visit reports, and volunteer
           certifications.
V.         Determined the quality review process established by the IRS to assist volunteers in
           ensuring tax returns are accurately prepared.
VI.        Determined the effect on tax revenue by identifying the number of tax returns prepared at
           the VITA sites that have been prepared inaccurately and the potential effect on tax
           revenue by obtaining a listing of the VITA sites’ Electronic Filing Identifier Numbers to
           extract the primary Social Security Numbers of tax returns e-filed from VITA sites using
           IRS computer systems.


5
    The Territory Offices have overall responsibility for management of the VITA Program.


                                                                                                Page 17
       Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly
         at Internal Revenue Service Volunteer Income Tax Assistance Sites

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Frank Jones, Audit Manager
Russell Martin, Audit Manager
Pamela DeSimone, Lead Auditor
Jackie Forbus, Senior Auditor
Robert Howes, Senior Auditor
Jean Bell, Auditor
Vacenessia Brown, Auditor
Jerry Douglas, Auditor
Mary Keyes, Auditor




                                                                                         Page 18
       Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly
         at Internal Revenue Service Volunteer Income Tax Assistance Sites

                                                                              Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Stakeholder Partnerships, Education, and Communication, Wage and Investment
Division SE:W:CAR:SPEC
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                    Page 19
                    Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly
                      at Internal Revenue Service Volunteer Income Tax Assistance Sites

                                                                                                         Appendix IV


                   Results of Tax Returns Prepared at Volunteer Income Tax Assistance
                                     Sites by State1 for Tax Year 2002

                                                                               Earned
                                                                               Income
                                              Paper and                          Tax       Earned        Child
                      Paper      Electronic   Electronic                        Credit   Income Tax       Tax       Child Tax
                       Tax          Tax          Tax              Refund         Tax        Credit      Credit       Credit
     State           Returns      Returns      Returns            Amount       Returns     Amount       Returns      Amount
Alabama                 1,568         6,497         8,065    $11,018,279         1,529     $2,325,712     2,139      $1,798,085
Alaska                    429         6,989         7,418    $10,753,817         1,196     $1,651,904     2,512      $2,162,496
Arizona                 3,969        15,506        19,475    $23,099,470         3,783     $5,476,253     4,233      $3,409,155
Arkansas                1,169         5,878         7,047         $8,351,891     1,387     $1,799,707     1,412      $1,111,509
California             24,431        35,665        60,096    $67,087,849        13,936    $19,490,280    11,138      $8,674,473
Colorado                6,767        12,496        19,263    $20,544,327         4,367     $5,214,469     3,881      $3,085,419
Connecticut             3,902         4,897         8,799         $9,232,717     1,624     $2,050,058     1,305       $998,357
Delaware                  715         3,689         4,404         $5,924,882     1,238     $1,802,400      977        $720,244
District of
Columbia                1,482         1,165         2,647         $2,843,711       805      $883,960       376        $276,083
Florida                14,829        37,735        52,564    $60,248,133         9,874    $13,582,097     9,605      $7,601,111
Georgia                 4,324        19,103        23,427    $32,333,450         4,373     $6,743,289     5,952      $4,848,899
Hawaii                  1,381        11,330        12,711    $21,418,305         2,122     $3,082,640     3,909      $3,288,922
Idaho                     261         2,505         2,766         $3,487,892       531      $831,789       672        $556,779
Illinois               17,322        18,434        35,756    $39,621,528        11,830    $15,337,727     5,349      $3,693,077
Indiana                 8,106         3,492        11,598         $8,485,724     2,301     $1,985,953      904        $664,596
Iowa                    1,285         1,457         2,742         $2,382,695       665      $733,188       316        $238,735
Kansas                  3,646        11,590        15,236    $16,637,164         3,407     $4,153,465     3,003      $2,482,275
Kentucky                2,209         8,871        11,080    $13,847,845         2,332     $3,128,806     2,526      $2,057,483
Louisiana               2,679        10,631        13,310    $18,506,242         4,139     $6,953,216     2,837      $1,984,113
Maine                     816         1,220         2,036         $2,126,800       404      $513,848       350        $287,126
Maryland                4,009         9,886        13,895    $17,219,131         1,748     $2,187,044     3,075      $2,546,389



        1
            Including the District of Columbia and Puerto Rico.
                                                                                                                  Page 20
                Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly
                  at Internal Revenue Service Volunteer Income Tax Assistance Sites

                                                                   Earned
                                                                   Income
                                        Paper and                    Tax       Earned        Child
                 Paper     Electronic   Electronic                  Credit   Income Tax       Tax       Child Tax
                  Tax         Tax          Tax        Refund         Tax        Credit      Credit       Credit
    State       Returns     Returns      Returns      Amount       Returns     Amount       Returns      Amount
Massachusetts      4,680       4,947         9,627    $8,951,943     2,331     $2,662,995     1,067       $747,044
Michigan           6,328       3,816        10,144    $7,060,567     3,007     $2,811,990      522        $329,729
Minnesota          4,799       4,346         9,145    $7,892,862     3,315     $3,640,148     1,098       $728,520
Mississippi        1,424       4,116         5,540    $6,337,913       901     $1,176,523     1,382      $1,151,714
Missouri           5,130      12,264        17,394   $19,228,754     4,589     $5,942,607     3,084      $2,445,917
Montana             725          628         1,353     $967,964        403      $358,007        80         $56,963
Nebraska           1,874       4,510         6,384    $7,629,506     1,271     $1,619,938     1,397      $1,185,595
Nevada             1,453       5,189         6,642    $7,523,240     1,009     $1,309,612     1,285      $1,037,887
New
Hampshire           817          281         1,098     $838,091        146      $127,303        91         $75,200
New Jersey         8,445       3,043        11,488    $9,381,144     1,388     $1,449,461     1,110       $859,117
New Mexico         4,567      13,109        17,676   $18,124,429     5,521     $6,357,081     2,522      $1,812,089
New York          13,768      20,972        34,740   $37,419,480    10,956    $13,645,376     4,556      $3,168,234
North
Carolina           7,938      22,478        30,416   $35,053,379     4,861     $6,808,561     6,224      $4,938,613
North Dakota        430        4,363         4,793    $6,220,059       927     $1,265,442     1,104       $897,569
Ohio               9,394       9,256        18,650   $16,489,646     3,359     $3,642,015     2,049      $1,597,332
Oklahoma           4,276      17,816        22,092   $25,362,324     6,007     $8,051,669     4,314      $3,248,428
Oregon              877          387         1,264     $941,423        251      $281,761       114         $72,092
Pennsylvania      17,769      10,831        28,600   $23,797,745     5,397     $6,322,915     2,264      $1,602,821
Puerto Rico         502          614         1,116    $1,254,189         4        $8,090       146        $118,538
Rhode Island        507        1,001         1,508    $1,680,668       240      $298,229       252        $216,205
South
Carolina           3,098      10,918        14,016   $16,679,627     2,511     $3,214,889     2,940      $2,342,334
South Dakota        450        3,052         3,502    $4,740,172       965     $1,407,355      848        $697,658
Tennessee          2,993      13,527        16,520   $20,570,808     3,430     $4,810,112     3,157      $2,395,737
Texas             24,666      46,485        71,151   $87,356,025    16,784    $23,492,817    15,350     $12,019,099
Utah               1,824       7,979         9,803   $11,155,770     2,061     $2,755,747     1,858      $1,475,144
Vermont             687          854         1,541    $1,563,058       609      $780,011       145         $88,374
Virginia           5,355      15,711        21,066   $28,520,095     3,023     $3,958,413     5,506      $4,893,312
                                                                                                      Page 21
                 Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly
                   at Internal Revenue Service Volunteer Income Tax Assistance Sites

                                                                      Earned
                                                                      Income
                                         Paper and                      Tax         Earned          Child
                  Paper     Electronic   Electronic                    Credit     Income Tax         Tax        Child Tax
                   Tax         Tax          Tax         Refund          Tax          Credit        Credit        Credit
    State        Returns     Returns      Returns       Amount        Returns       Amount         Returns       Amount
Washington          3,449      13,646        17,095    $26,820,173       2,919       $4,138,472      5,300       $4,611,459
West Virginia       2,243        2,963        5,206     $4,763,750       1,196       $1,263,033        521        $387,403
Wisconsin           3,500      12,452        15,952    $15,015,842       4,451       $4,983,730      2,456       $1,861,407
Wyoming              260        2,752         3,012     $3,592,863         575         $737,706        687        $582,263
International/
Military            4,838      86,096        90,934   $137,630,917      11,546      $17,218,282     21,718      $17,413,475
Totals:           254,365   589,438        843,803   $995,736,279 179,544        $236,468,096       161,618    $127,542,596
      Source: Internal Revenue Service management information system containing all tax returns prepared at
      Volunteer Income Tax Assistance sites.




                                                                                                              Page 22
        Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly
          at Internal Revenue Service Volunteer Income Tax Assistance Sites

                                                                                    Appendix V


               States Visited for Volunteer Tax Preparation Assistance
                             February Through April 2004




The 15 states visited in which auditors had tax returns prepared included Arizona, California,
Florida, Illinois, Louisiana, Maine, Maryland, Massachusetts, New Hampshire, New Mexico,
New York, Ohio, Oklahoma, South Carolina, and Texas. We also visited the District of
Columbia.




                                                                                          Page 23
      Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly
        at Internal Revenue Service Volunteer Income Tax Assistance Sites

                                                                          Appendix VI


       Results of Tax Returns Incorrectly Prepared at Community-Based
                    Volunteer Income Tax Assistance Sites

                          Volunteer
                         Income Tax
  Taxpayer Assistance     Assistance                        Refund         Refund
    Centers Visited        Refund        Correct Refund   Understated     Overstated
Phoenix, AZ                     $1,716           $1,310                           $406
National City, CA               $2,203           $1,310                           $893
Oakland, CA                     $1,797             $258                         $1,539
Oceanside, CA                   $1,797           $1,310                           $487
Sacramento, CA                    $707              $72                           $635
San Diego, CA                   $2,200           $1,310                           $890
San Francisco, CA                 $797             $258                           $539
Washington, D.C.                $1,797           $1,310                           $487
Washington, D.C.                $2,203             $258                         $1,945
Plantation, FL                  $2,017           $1,220                           $797
Dekalb, IL                      $1,258           $1,310            $52
Melrose Park, IL                $1,340             $258                         $1,082
Normal, IL                      $2,203             $258                         $1,945
Baton Rouge, LA                 ($148)             $258           $406
New Orleans, LA                 ($148)           $1,310          $1,458
New Orleans, LA                 $2,203           $1,310                           $893
Boston, MA                      $1,707           $1,220                           $487
Rockville, MD                   $2,203           $1,310                           $893
Portland, ME                    $1,797           $1,310                           $487
Nashua, NH                      $2,203             $258                         $1,945
Albuquerque, NM                 $2,203           $1,310                           $893
Gallup, NM                      $2,203           $1,310                           $893
Las Cruces, NM                  $1,797           $1,310                           $487
Brooklyn, NY                    $2,203           $1,310                           $893
New York, NY                    $2,203           $1,310                           $893
                                                                                 Page 24
     Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly
       at Internal Revenue Service Volunteer Income Tax Assistance Sites

                               Volunteer
                              Income Tax
  Taxpayer Assistance          Assistance                             Refund             Refund
    Centers Visited             Refund           Correct Refund     Understated         Overstated
Columbus, OH                                $0           $1,310             $1,310
Hobart, OK                            $2,203             $1,310                                  $893
Oklahoma City, OK                     $2,203             $1,310                                  $893
Tulsa, OK                             $2,203             $1,310                                  $893
Anderson, SC                          $2,203             $1,310                                  $893
Columbia, SC                          $1,797               $258                                $1,539
West Columbia, SC                     $1,803             $2,203               $400
Austin, TX                            $1,797             $1,310                                  $487
Houston, TX                             $797             $1,310               $513
Round Rock, TX                        ($148)               $258               $406
        Totals:                                                              $4,546            $26,007
   Source: Anonymous visits performed by Treasury Inspector General for Tax Administration auditors.




                                                                                                 Page 25
Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly
  at Internal Revenue Service Volunteer Income Tax Assistance Sites

                                                               Appendix VII


           Management’s Response to the Draft Report




                                                                       Page 26
Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly
  at Internal Revenue Service Volunteer Income Tax Assistance Sites




                                                                       Page 27
Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly
  at Internal Revenue Service Volunteer Income Tax Assistance Sites




                                                                       Page 28
Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly
  at Internal Revenue Service Volunteer Income Tax Assistance Sites




                                                                       Page 29
Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly
  at Internal Revenue Service Volunteer Income Tax Assistance Sites




                                                                       Page 30
Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly
  at Internal Revenue Service Volunteer Income Tax Assistance Sites




                                                                       Page 31
Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly
  at Internal Revenue Service Volunteer Income Tax Assistance Sites




                                                                       Page 32
Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly
  at Internal Revenue Service Volunteer Income Tax Assistance Sites




                                                                       Page 33
